             Audit Report



Protection and Advocacy Agencies’
    Reviews of Organizational
       Representative Payees




      A-13-12-12119 | August 2013
MEMORANDUM


Date:      August 22, 2013                                                    Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees
           (A-13-12-12119)

           The attached final report presents the results of our audit. Our objective was to assess whether
           organizational representative payee reviews completed by State Protection and Advocacy
           agencies complied with the terms of the Social Security Administration’s contract with the
           National Disability Rights Network. We also assessed whether organizational payees were
           meeting Social Security beneficiaries’ needs.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Protection and Advocacy Agencies’ Reviews of Organizational
Representative Payees
A-13-12-12119
August 2013                                                               Office of Audit Report Summary

Objectives                                Our Findings

To assess whether organizational          P&A agencies submitted final reports, as required by the terms of
representative payee reviews              the contract, and evidence within the reports adequately supported
completed by State Protection and         the P&As’ conclusions. Nothing came to our attention to indicate
Advocacy (P&A) agencies complied          the 20 payees we reviewed were not meeting the beneficiaries’
with the terms of the Social Security     needs. However, we found four payees could improve the way they
Administration’s (SSA) contract with      performed their representative payee duties. Specifically, three
the National Disability Rights Network    payees did not comply with SSA’s policies and procedures, and one
(NDRN). We also assessed whether          payee did not comply with the Fair Labor Standards Act (FLSA).
organizational payees were meeting
Social Security beneficiaries’ needs.     Our Recommendations

Background                                We recommend that SSA:

Some individuals cannot manage or         1. Remind the employer payee in Monmouth, Oregon, to retain
direct the management of their               adequate documentation and maintain clear ledger entries.
finances because of their youth or
mental and/or physical impairment.        2. Review the record of the Supplemental Security Income
Congress granted SSA the authority to        recipient we identified as being over the $2,000 resource limit
appoint representative payees to             and recover any overpayment, as applicable.
receive and manage these
                                          3. Contact NDRN to ensure the P&A reviewer viewed and
beneficiaries’ payments.
                                             obtained copies of the FLSA certificate and/or renewal
In September 2009, SSA contracted            application from the employer payee in Baltimore, Maryland. If
with NDRN for its P&A agencies to            NDRN did not obtain copies of the expired FLSA certificate
review organizational representative         and renewal application, they must follow up with the payee to
payees. Most States have a P&A               obtain the documents. If the payee does not have the
agency that assists those with               documentation, the reviewer should notify the Department of
developmental disabilities in receiving      Labor and inform SSA the referral was made.
appropriate programs and services,
                                          SSA agreed with our recommendations.
such as Social Security benefits.

In Fiscal Year 2011, P&A agencies
reviewed 174 employer payees under
SSA’s contract with NDRN. By
April 30, 2012, P&A agencies had
reviewed an additional 253 payees
identified using a “misuse model”
developed by SSA. Of the 427 P&A
reviews completed, we sampled and
reviewed 20 organizational payees.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     P&A Agencies’ Compliance with Contract Terms ....................................................................3
     Accounting of Receipt and Disbursement of Funds ..................................................................3
           Oversight of Beneficiary Accounts ......................................................................................3
           Retaining Documentation ....................................................................................................5
           SSI Recipient Exceeded the Resource Limit .......................................................................6
           Noncompliance with FLSA .................................................................................................6
Conclusions ......................................................................................................................................7
Recommendations ............................................................................................................................7
Agency Comments ...........................................................................................................................7
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology....................................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)
ABBREVIATIONS
C.F.R.               Code of Federal Regulations

DCRDP                Deputy Commissioner for Retirement and Disability Policy

FLSA                 Fair Labor Standards Act

NDRN                 National Disability Rights Network

OASDI                Old-Age, Survivors and Disability Insurance

OCA                  Office of Contract Administration

OIG                  Office of the Inspector General

OQP                  Office of Quality Performance

P&A                  Protection and Advocacy

POMS                 Program Operations Manual System

SSA                  Social Security Administration

SSI                  Supplemental Security Income




Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)
OBJECTIVES
Our objective was to assess whether organizational representative payee reviews completed by
State Protection and Advocacy (P&A) agencies complied with the terms of the Social Security
Administration’s (SSA) contract with the National Disability Rights Network (NDRN). We also
assessed whether organizational payees were meeting Social Security beneficiaries’ needs.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of their
youth or mental and/or physical impairment. Congress granted SSA the authority to appoint
representative payees to receive and manage these beneficiaries’ payments. 1 A representative
payee may be an individual or an organization. SSA selects representative payees for Old-Age,
Survivors and Disability Insurance (OASDI) 2 and Supplemental Security Income (SSI) 3
beneficiaries 4 when representative payments would serve the individual’s interests.

Congress has expressed concern about, and we have reported on, representative payees who also
employ the beneficiaries they serve. In March 2010, we reported to Congress 5 that there was an
added risk related to these payees. In acknowledging this risk, SSA implemented a process for
visiting specific employer payees. Further, our May 2010 report on The Social Security
Administration’s Oversight of Employer Representative Payees (A-13-10-20125) stated, “. . . an
internal quality control process is important to ensure the employer payee reviews conducted by
SSA staff and P&As follow appropriate procedures. Once the P&A reviews are completed, we
plan to examine a sample of the reviews . . . Our work will focus on determining whether the
reviews complied with applicable policies and procedures.”

We subsequently reviewed payee reports completed by P&A agencies under SSA’s contract with
NDRN—Contract Number SS00-09-60111. 6 Under the contract, NDRN used P&A agencies to
review organizational representative payees who also serve as employers. The Agency reported,




1
    Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii)(I); 42 U.S.C. §§ 405(j)(1)(A) and 1383(a)(2)(A)(ii)(I).
2
 The OASDI program provides benefits to qualified retired and disabled workers and their dependents as well as to
survivors of insured workers. Social Security Act § 201 et seq.; 42 U.S.C. § 401 et seq.
3
 The SSI program provides payments to individuals who have limited income and resources and who are age 65 or
older, blind, or disabled. Social Security Act §1601et seq.; 42 U.S.C. § 1381 et seq.
4
    We use the term “beneficiary” in this report to refer to both OASDI beneficiaries and SSI recipients.
5
 SSA/OIG, Representative Payees Who Employ Beneficiaries or Provide Employment Services (A-13-10-11013),
March 19, 2010.
6
 SSA awarded the contract on September 30, 2009. On June 21, 2012, the Contracting Officer provided a
comprehensive contract document that incorporated all contract modifications issued to date. We refer to this
document as the “contract” throughout this report.



Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)                       1
          All States and US Territories have a governor designated P&A agency that assists
          individuals with disabilities. There are seven distinct Federally funded programs;
          each targeted at a type of disability or a function including for example, P&A for
          Individuals with Mental Illness, P&A for Voting Rights, P&A for Individuals with
          Developmental Disabilities, P&A for Assistive Technology, and P&A for
          Beneficiaries of Social Security. Persons with disabilities may receive a broad
          continuum of P&A services under the program for which they are eligible such as
          removing obstacles to housing, transportation, employment and rehabilitation, etc.

In Fiscal Year 2011, the Agency reported P&A agencies completed reviews of 174 employer
payees.

The Agency reported, “After reviewing a sizeable sample of employer payee reviews, SSA did
not find any major employer related problems. In August 2011, SSA redirected their resources
to focus on conducting reviews by using a misuse predictive model developed by SSA’s Office
of Quality Performance.” In July and August 2011, the Agency issued two Task Orders 7 related
to the contract. The Task Orders directed P&As to complete additional reviews of organizational
representative payees which SSA selected using the misuse model. The Agency further reported,
“The review protocol was also modified to include a comprehensive analysis of the payee’s
fiscal integrity and fiduciary responsibility which remains the primary focus of SSA’s reviews.”
SSA staff reported it completed an additional 253 reviews. Of the 253, 1 payee was serving as
an employer.

From the 427 reviews P&A agencies completed, we selected a sample of 20 organizational
payees to examine. We evaluated 10 employer payees and 10 payees using SSA’s misuse
model. Our selection included two of the larger organizational payees in each SSA region. For
our review, we (a) assessed the P&A agencies’ compliance with terms of the Agency’s contract
with NDRN, (b) interviewed 20 payees and 192 beneficiaries, and (c) assessed payees’ financial
records. Our review of financial records covered the 12-month period August 2011 to July 2012.
See Appendix A for our scope and methodology and Appendix B for our sampling methodology.

RESULTS OF REVIEW
P&A agencies submitted final reports, as required by the contract’s terms, and evidence in the
reports adequately supported the P&A agencies’ conclusions. Nothing came to our attention to
indicate beneficiaries’ needs were not being met for the 20 payees we reviewed. However, four
payees—of which two were organizational employer representative payees—could have
improved how they performed their representative payee duties. Specifically, three payees did
not comply with SSA’s policies and procedures, and one payee did not comply with the Fair
Labor Standards Act (FLSA). The P&A agencies did not identify two instances of
noncompliance, nor the FLSA-related issue.




7
    Task Order Numbers SS00-11-30919 and SS00-11-31106.



Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)   2
P&A Agencies’ Compliance with Contract Terms
Work completed by the P&A agencies complied with SSA’s contract with NDRN. Specifically,
we determined whether the P&As provided a final report to SSA, as required by the contract.
SSA’s contract with NDRN was awarded September 30, 2009 and specified the work NDRN, in
collaboration with the P&A agencies, would complete regarding reviews of organizational
representative payees. Under the contract terms, “NDRN will submit final reports . . . to the SSA
as soon as possible . . . following receipt of the final report from the P&A.” The reports should
document the results of the P&A review and the conclusions P&As made regarding any potential
fraud or mismanagement issues.

P&As submitted final reports, as required by the terms of the contract, for all of the 20 payees we
reviewed. We examined the final reports the P&A agencies completed for these organizational
payees. Based on the evidence in the reports, we found the information adequately supported the
P&A agencies’ conclusions.

Accounting of Receipt and Disbursement of Funds
Our assessment of the 20 organizational representative payees’ financial records found instances
of inadequate accounting of the receipt and disbursement of funds. Of the 20 payees, 3 did not
comply with SSA’s policy requiring that representative payees maintain accurate and complete
records for the Social Security benefits they manage. One payee lacked sufficient oversight of
beneficiary accounts. Another payee did not retain adequate documentation to support how it
spent beneficiary payments. Finally, a payee failed to notify SSA when a beneficiary in its care
exceeded the allowable resource limit.

Oversight of Beneficiary Accounts
We determined a payee in Matteson, Illinois, was not maintaining sufficient oversight of
beneficiary accounts. The P&A had also reported this finding in one of its previous reviews. At
the time of our review, the payee was managing monthly benefits for 40 beneficiaries. We found
the payee did not (a) monitor beneficiary personal spending, (b) track beneficiary-conserved
fund balances on accounting ledgers, or (c) retain all supporting documentation for bank
reconciliations.

The P&A agency’s review of the payee identified problems related to oversight of beneficiary
accounts. The P&A agency’s final report, dated December 16, 2011, discusses its concerns
about possible mismanagement of beneficiary funds. During an October 2011 site visit, the
payee informed the P&A agency that the State of Illinois’ Department of Human Services’
Office of the Inspector General (OIG) was investigating misappropriation of funds by an
employee.

In addition, the P&A agency’s review found the payee did not retain ledgers or receipts to track
beneficiary spending. The P&A noted beneficiaries did not always receive their personal
spending money in a timely manner, and found, on one occasion, a check written for a



Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)   3
beneficiary’s personal spending had bounced. At the time of its visit, the payee had notified the
P&A of the Illinois Department of Human Services OIG investigation.

Another component of the Illinois Department of Human Services—Office of Contract
Administration (OCA)—also conducted an on-site review of the payee in January 2012. OCA’s
review found the payee’s recordkeeping and oversight of beneficiary fiduciary accounts was
inadequate. For example, OCA reported the payee did not use check registers to track
beneficiary balances. Instead, the payee verified beneficiary account information using bank
statements. OCA’s report stated, “This method of recordkeeping can result in overdrafts; will
not likely detect possible errors by the bank; and is not in accordance with sound fiscal
standards.”

Our review of the Matteson, Illinois, payee found its monitoring of beneficiary spending was still
inadequate. During an interview with a payee official in August 2012, staff explained the payee
did not monitor beneficiaries’ personal spending. The official explained staff did not believe it
was their business to track how individuals spent their personal money. The official reported
SSA had advised the payee to begin collecting receipts related to beneficiary personal spending.
However, the official indicated staff was not always able to collect receipts, but now requires
that beneficiaries sign a statement acknowledging their refusal to provide the requested
information.

Our review of financial records found the payee did not use accounting ledgers to track
beneficiaries’ conserved fund balances. Payee staff stated they tracked beneficiaries’ conserved
fund balances by reviewing beneficiary bank statements. We agree with the Illinois Department
of Human Services that this practice could put beneficiaries’ accounts at risk for overdrafts and
associated fees. In addition, we do not believe this is the most effective method of monitoring
SSI recipients’ accounts to ensure they do not exceed the resource limit.

We requested the payee provide copies of bank reconciliations with supporting documentation
for 2 consecutive months in our audit period. The payee did not provide the requested data for
one individual. Payee staff explained the person responsible for maintaining these data abruptly
terminated her employment with the payee and did not leave any records for review.

SSA’s Guide for Organizational Representative Payees requires that payees maintain a separate
record for each beneficiary in their care. The guidance further requires that payees keep records
of all Social Security payments, bank statements, and receipts for major purchases made on the
beneficiary’s behalf for at least 2 calendar years. 8 Finally, the guidance states payees should
conduct monthly reconciliations of ledgers and bank records as soon as they receive bank
statements. This practice will give representative payees the opportunity to correct errors and
inconsistencies in their records. 9



8
    SSA’s Guide for Organizational Representative Payees, page 6 http://www.ssa.gov/payee/NewGuide/toc.htm
9
    Id., page 17



Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)            4
In November 2012, we inquired about the actions SSA took regarding the results discussed in the
December 2011 P&A report. The Agency informed us it completed a “quick response” review
in April 2012 and determined the payee misused $150 of Social Security payments. The payee
remitted payment to SSA during the 45-day appeal period. On June 17, 2013, the Agency
reported it had determined the payee in Matteson, Illinois, should continue serving as a
representative payee. According to the Agency, the misuse was an isolated event involving one
employee of the facility whose employment the payee has since terminated.

Retaining Documentation
Representative payees are responsible for retaining detailed and accurate records of how they use
the benefits to provide an accurate report to SSA when requested. 10 An organizational employer
representative payee in Monmouth, Oregon, did not provide all beneficiary accounting ledgers 11
for the 12-month period we reviewed. Therefore, we were unable to ascertain how the payee
spent all the beneficiaries’ payments during our review period.

Accounting ledgers provided by the payee were generally handwritten and difficult to read.
Further, for select beneficiaries, the income recorded in the accounting ledgers did not always
reflect the benefit payment amounts recorded in SSA’s information systems. We contacted the
payee about the accounting ledgers and requested additional information. As of May 6, 2013, we
had not received any additional information from the payee.

SSA guidance suggests representative payees use a computerized program that provides
understandable and up-to-date reports so both SSA and the beneficiary can see how much money
was received, how the money was spent, and how much money remains. 12 If payees do not
retain adequate documentation, there is an increased risk of unauthorized expenditures. Finally,
the guidance provides representative payees with an example of a monthly accounting ledger.
The guidance states payees may use the sample ledger, or something like it, to help keep track of
the funds payees manage. It furthers states use of accounting ledgers will make reporting to SSA
much easier. 13 If the payee continues its practice of preparing hand-written accounting ledgers,
the ledgers should be legible. We reviewed the P&A agency’s final report dated
February 28, 2011. Within the report, the P&A did not identify this issue.




10
     SSA, POMS, GN 00502.113 C.(1) (October 13, 2011).
11
     Representative payees track beneficiary funds using accounting ledgers.
12
     SSA’s Guide for Organizational Representative Payees, page 48.
13
     Id., page 1.



Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)   5
SSI Recipient Exceeded the Resource Limit
Representative payees are responsible for informing SSA when an SSI recipient’s resources
exceed the allowable limit. 14 We determined an organizational payee in North Attleboro,
Massachusetts, did not notify SSA timely when a concurrently entitled 15 recipient’s ledger
balances exceeded the $2,000 maximum allowed.16 The recipient’s ledger balances exceeded the
resource limit for each of the 12 months in our audit period and continued after our audit period.
As a result, we estimate this individual received approximately $618 17 in potential SSI
overpayments during our audit period. Our analysis further indicates potential overpayments due
to ineligibility beyond our audit period. However, we did not obtain ledgers for months beyond
our audit period to quantify any additional overpayments that occurred. We reviewed the P&A
agency’s final report dated April 13, 2012. Within the report, the P&A did not identify this
issue.

Noncompliance with FLSA
FLSA provides that disabled workers whose disabilities impair their ability to perform the type
of work being done in the establishment may be employed at wage rates below the minimum
otherwise required. FLSA permits such employment only under certificates issued by the
Department of Labor.

During beneficiary interviews for an organizational employer representative payee in
Baltimore, Maryland, we determined the payee paid employed beneficiaries $6.15 per hour,
$1.10 less than the current Federal minimum wage of $7.25 per hour.

To confirm the payee had received authorization to pay the special minimum wage rate, we
requested a copy of the payee’s FLSA certificate. The payee did not provide the certificate.
However, the payee stated its certificate had expired, and it was applying for an updated FLSA
certificate. The payee further explained staff would provide a copy of the certificate application
once it was complete. We also requested a copy of the payee’s expired certificate. To date, we
have not received the certificate application or the expired certificate.

FSLA states, “If an application for renewal has been properly and timely filed, an existing
special minimum wage certificate shall remain in effect until the application for renewal has
been granted or denied.” Without evidence of the expired certificate and a timely filed
application for renewal, we believe the payee may have underpaid employed beneficiaries in the


14
  20 C.F.R. §§ 416.704(c), and 416.635(d). See also SSA, Guide for Organizational Representative Payees –
Additional Reporting Events for SSI Beneficiaries, page 7.
15
     A “concurrent” beneficiary is one who receives both OASDI and SSI monthly benefit payments.
16
  The resource limit for SSI beneficiaries is $2,000 for an individual and $3,000 for a married couple. 20 C.F.R. §
416.1205(c); See also SSA, POMS, SI 01110.003 A.2 (December 8, 2010).
17
  We estimated the amount by multiplying the number of months the beneficiary was over the resource limit by the
beneficiary’s monthly SSI payment amount.



Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)                     6
payee’s care, since the employed beneficiaries earned prior wages at a rate less than the Federal
minimum wage.

During its site review of this payee in December 2010, a P&A agency noted it had interviewed
three beneficiaries who the payee paid less than minimum wage authorized under an FLSA
special minimum wage certificate. We reviewed the P&A agency’s final report dated
February 18, 2011. In the report, the P&A did not specify whether it reviewed the FLSA
certificate during its site visit.

CONCLUSIONS
P&A agencies submitted final reports, as required by the contract terms, and evidence in the
reports adequately supported the conclusions made by the P&A agencies. Nothing came to our
attention to indicate beneficiaries’ needs were not met by the 20 payees we reviewed. However,
three payees did not comply with SSA’s policies and procedures, and one payee did not comply
with the FLSA.

RECOMMENDATIONS
We recommend that SSA:

1. Remind the employer payee in Monmouth, Oregon, to retain adequate documentation and
   maintain clear ledger entries.

2. Review the record of the SSI recipient we identified as being over the $2,000 resource limit
   and recover any overpayment, as applicable.

3. Contact NDRN to ensure the P&A reviewer viewed and obtained copies of the FLSA
   certificate and/or renewal application from the employer payee in Baltimore, Maryland. If
   NDRN did not obtain copies of the expired FLSA certificate and renewal application, they
   must follow up with the payee to obtain the documents. If the payee does not have the
   documentation, the reviewer should notify the Department of Labor and inform SSA the
   referral was made.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix C for the full text of the Agency’s
comments.




Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)   7
                                       APPENDICES




Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   Reviewed applicable laws and regulations.

•   Reviewed Social Security Administration (SSA) policies and procedures related to site
    reviews.

•   Reviewed prior Office of the Inspector General reports.

•   Obtained two reports from the Office of the Deputy Commissioner for Retirement and
    Disability Policy of organizational payees reviewed by Protection and Advocacy (P&A)
    agencies under SSA’s contract—Contract Number SS00-09-60111 1—with the National
    Disability Rights Network (NDRN). SSA awarded the contract September 30, 2009.

        o One report contained 174 employer representative payees P&As reviewed during
          Fiscal Year 2011.

        o The second report contained 253 organizational payees P&As reviewed under task
          orders related to the contract. The task orders directed the P&As to review
          organizational payees selected using a “misuse model” developed by SSA’s Office of
          Quality Performance (OQP). P&As completed these reviews by April 30, 2012.

•   Selected a sample of 20 organizational payees to assess whether the P&A reviews complied
    with terms of the Agency’s contract with NDRN, and Social Security beneficiaries’ needs
    were met. We selected 10 payees from the file of 174 employer payees and selected an
    additional 10 payees from the file of 253 payees identified using OQP’s misuse model. We
    selected 2 of the largest payees in each of SSA’s 10 regions. See Appendix B, Sampling
    Methodology, for more information.

        o Obtained copies of the Final Reports completed by P&As to determine whether:

                     P&As complied with certain terms of Contract Number SS00-09-6011 for submitting
                      final reports; and

                     Evidence contained in the reports adequately supported the P&A’s conclusions.

        o Interviewed selected representative payees and beneficiaries.




1
  SSA awarded the contract on September 30, 2009. On June 21, 2012, the Contracting Officer provided a
comprehensive contract document that incorporated all contract modifications issued to date. This document is
referred to as the “contract” throughout this report.



Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)               A-1
        o Observed employed beneficiaries’ work environments.

        o Assessed the payee’s financial records covering a 12-month period.

The principle entities audited were the Offices of the Deputy Commissioners for Retirement and
Disability Policy and Operations. We conducted our review in Baltimore, Maryland, from
August 2012 through April 2013. In addition, we performed work in California, Colorado,
Georgia, Illinois, Indiana, Iowa, Kansas, Massachusetts, New York, Oregon, Texas, and
Vermont. We tested the data obtained for our review and determined them to be sufficiently
reliable to meet our objectives. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.




Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)   A-2
Appendix B – SAMPLING METHODOLOGY
In July 2012, staff from the Social Security Administration’s (SSA) Office of the Deputy
Commissioner for Retirement and Disability Policy (DCRDP) provided a file of
174 organizational employer representative payees Protection and Advocacy (P&A) agencies
reviewed during Fiscal Year 2011 under the Agency’s contract with the National Disability
Rights Network (NDRN)—Contract Number SS00-09-60111 1. In June 2012, DCRDP staff
provided a file of 253 organizational representative payees P&As reviewed under the contract
with NDRN. SSA selected these payees for review using a misuse model developed by its
Office of Quality Performance. P&As completed the 253 site reviews by April 30, 2012.

From the population of 427 organizational payees, we selected a sample of 20 to assess whether
the reviews complied with terms of the Agency’s contract with NDRN and selected Social
Security beneficiaries’ needs were met. We selected 10 payees from the file of 174 employer
payees and an additional 10 payees from the file of 253 payees identified using OQP’s misuse
model. The selected payees were 2 of the largest payees in each of SSA’s 10 regions.

For the 20 payees, we selected a sample of 198 beneficiaries for a review of their financial
records. We interviewed and observed 192 of those beneficiaries. Based on our review of
financial records and interviews with beneficiaries, nothing came to our attention to indicate the
beneficiaries’ needs were not met. See Table B–1 for more information.




1
 SSA awarded the contract on September 30, 2009. On June 21, 2012, the Contracting Officer provided a
comprehensive contract document that incorporated all contract modifications issued to date. We refer to this
document as the “contract” throughout this report.



Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)               B-1
              Table B–1: Organizational Representative Payees Selected for Review
                                                                         Number of
                      Region             Payee Location                 Beneficiaries
                                                                          Served 2
                               Barre, Vermont                                 254
                      Boston
                               North Attleboro, Massachusetts                  31
                               New York, New York                             526
                   New York
                               Far Rockaway, New York                          48
                               Baltimore, Maryland                            306
                  Philadelphia
                               Baltimore, Maryland                             46
                               Albany, Georgia                                 86
                    Atlanta
                               Atlanta, Georgia                                44
                               Fort Wayne, Indiana                            364
                    Chicago
                               Matteson, Illinois                              40
                               Burleson, Texas                                250
                     Dallas
                               Arlington, Texas                                27
                               Lenox, Iowa                                     30
                  Kansas City
                               Pittsburg, Kansas                               49
                               Grand Junction, Colorado                       137
                    Denver
                               Fort Collins, Colorado                          21
                               Santa Monica, California                        84
                 San Francisco
                               Napa, California                                15
                               Monmouth, Oregon                                50
                    Seattle
                               Springfield, Oregon                             37




2
    As of July-September 2012



Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)   B-2
           Appendix C – AGENCY COMMENTS




                                            SOCIAL SECURITY

MEMORANDUM


Date:      August 13, 2013                                                               Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Protection and Advocacy Agencies’ Reviews of
           Organizational Representative Payees” (A-13-12-12119)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)   C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "PROTECTION AND ADVOCACY AGENCIES’ REVIEWS OF
ORGANIZATIONAL REPRESENTATIVE PAYEES" (A-13-12-12119)

Recommendation 1

Remind the employer payee in Monmouth, Oregon, to retain adequate documentation and
maintain clear ledger entries.

Response

We agree. By August 30, 2013, we plan to complete all necessary actions to implement this
recommendation.

Recommendation 2


Review the record of the SSI recipient we identified as being over the $2,000 resource limit and
recover any overpayment, as applicable.

Response

We agree. By the end of fiscal year 2013, we plan to complete a review of the record OIG
identified as being over the resource limit and take action to recover any overpayment, if
necessary.

Recommendation 3

Contact NDRN to ensure that the P&A reviewer viewed and obtained copies of the FLSA
certificate and/or renewal application from the employer payee in Baltimore, Maryland. If
NDRN did not obtain copies of the expired FLSA certificate and renewal application, they must
follow-up with the payee to obtain the documents. If the payee does not have the documentation,
the reviewer should notify the Department of Labor and inform SSA that the referral was made.

Response

We agree. On June 13, 2013, we contacted the National Disability Rights Network (NDRN) to
obtain copies of the Fair Labor Standards Act (FLSA) certificate and renewal
application. NDRN agreed to ensure that the Protection and Advocacy reviewer viewed and
obtained copies of the FLSA certificate or renewal application. NDRN agreed to follow-up with
the payee to obtain the documents. If the payee does not have the certificate or renewal
application, NDRN agreed to notify the Department of Labor and inform us that it made the
referral. As appropriate, we will follow up with NDRN.




Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)   C-2
Appendix D – MAJOR CONTRIBUTORS
Shirley E. Todd, Director, Evaluation Division

Randy Townsley, Audit Manager

Nicole Gordon, Auditor-In-Charge




Protection and Advocacy Agencies’ Reviews of Organizational Representative Payees (A-13-12-12119)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
